HHS/OIG, Audit - "Review of Claims for Multiple Procedures Performed in the Same Operative Session in Ambulatory Surgical Centers," (A-07-03-02665)
Department
of Health and Human Services
Office of Inspector General -- AUDIT
"Review of Claims for Multiple Procedures Performed in the Same Operative
Session in Ambulatory Surgical Centers," (A-07-03-02665)
January 8, 2003
Complete Text of Report is available in PDF format
(400 KB). Copies can also be obtained by contacting the Office of Public Affairs
at 202-619-1343.
EXECUTIVE SUMMARY:
The objective of our analysis was to evaluate the effectiveness of the Wisconsin
Physicians Service Insurance Corporation's claims processing system in identifying
payment reductions for multiple ambulatory surgical center (ASC) procedures
for calendar years 1997 through 2001.  Regulations require that when multiple
services are provided in the same operative session, the highest paying procedure
is reimbursable at the full payment rate while the other procedures are reimbursable
at one-half the normal payment rate.  Our analysis showed that Wisconsin
Physicians Service Insurance Corporations systems failed to identify such instances,
which resulted in provider overpayments for calendar years 1997 through 2001
of approximately $8,196, $26,437, $25,663, $38,993 and  $33,947 ($133,236),
respectively.  Included in the identified overpayments is approximately
$26,873 in beneficiary overpayments for coinsurance.  Most of the overpayments
occurred because the carriers processing system did not identify multiple procedures
performed during the same session when submitted on separate claims.